FILED
MAR 1 5 2021

No.'

IN THE
SUPREME COURT OF THE UNITED STATES

Derrick G. James,
(Your Name)

— PETITIONER

vs.
0? Flori^Q p\ nl

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

—El-tS^ Dislricl Courl o? Appeals of- flnn'iin

__________________ ______

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

■Derrick C. lanes. DC Mo.: 53(793
(Your Name)
ColumklQ C.I AnnPXjkfli'-lk RoSPrl P^rnm

(Address)

Lake Ci-L. n. 3102%
(City, State, Zip Code)

(Phone Number)

5

j2\Q S.E Cornl/fy

QUESTION(S) PRESENTED

Can A Stale Corrections Arbitrarily Change A Defendant’s Prison Sentence
Nearly Two Decades Later, Even After Having Initionaliy Structured Said Court
Imposed Sentence; And, If So, Does SucVi Clears Tbe Way Of And/Or To An
Exception Of A Fifth Amendment Double Jeopardy Violation ?

LIST OF PARTIES

[A All parties appear in the caption of the case on the cover page.

Derrick G. James v. Stale o? Florida, Tirst DGA Mo.: IDIS-^CGO. Judgment December 10,2020.
Stale of Florida v. Derrick C, Jones, l.T Mo.:£018 CAi 106; (A018f0,Second Circuit

RELATED CASES
Derrick G. James v. rLDOC... Several GrieyQnceS^ReSponses ond Appeals were

kill

/

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

X

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE................................

.1:S

REASONS FOR GRANTING THE WRIT

S:7

CONCLUSION

8

INDEX TO APPENDICES
APPENDIX A

Decision of Sfofe Court of Appeals

APPENDIX B

Decision of State Triol Court and FLDOC

APPENDIXC

Decision of FL S upreme Court

APPENDIX D
APPENDIX E
APPENDIX F

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Ashley V. SUe, 850 SoiJ 12G5 ( Flo.2003)

G

SWev. Vilsen,G80So.£H11 313(^.1380)

Q

Lippman v. Stale,£33So,2d IQGlC Fla.1883)
Driver V. Shale, 7108o7J C52G53(Fla.2e! DCA1538)
Evans v. State,C75 So.2J 1012( Fla/fthDCA 1886)
Justice v. Stale, C 58 So.2J 1028 1035-30 ( Fla, 5th DCA 1835)

6
G *7 ;
7
7

STATUTES AND RULES

Fla.R(WP 3.700(b)

OTHER

7

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix _A__ to the petition and is
[ ] reported at
; or,
[A has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the Hondo DOC and Second Judicial Cirml
court
appears at Appendix _B___to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[A is unpublished.
1.

to

to

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was___ ______________
.
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:___________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including________________ _ (date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was Dpcgmlngr 10.2QZ0
A copy of that decision appears at Appendix A
[ ] A timely petition for rehearing was thereafter denied on the following date:
, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including_____________ (date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
First Amendment Right to Pile grievances
Fifth Amendment, Double Jeopardy Clause
Fourteenth Amend men t, Due Process Rights

3.

STATEMENT OF THE CASE

In October of 1338, Petitioner was sentenced to three years and six months in prison on
an unrelated case. In December of 1338, FMitioner was sen tenced to another twenty years
in prison to be served consecutive to the tb ree years and six month sentence. All
cases are unrelated to each other. In 1333, Petitioner was found quilly of one coun

t

of unoccupied burqlory and one coun t of ^rand theft. During sentencing the Prosecutor
requested "specificofly" that the Court sentence the Defendant consecutively to both”
sentences that

Petitioner was serving at that time. The State Trial Court then ashed

Btitioner if he wished to be heard iin which Btitioner stated yes. On numerous occasions
Btitioner's sole plea was for the Court to sentence Petitioner to It's impsed sentence
Concurrent to the Qctive twenty year sentence and not consecutive to such.* Petitioner*!
Attorney then Spohe,thus informing the Judqe to be mindful that Btitioner did not enter
the QpQnment of the victim,but only stuch his arm through an opened window to steal jewelry
from off of a dresser, following the requests and statement of everyone and all above listed
individuals the Court then pronounced It's sentence. Ihe Court's exact words were:
...etc.the defendant is hereby ordered to be committed to the custody of Department of
Corrections to serve a term of imprisonment of thirty years with credit for all time
Served. Said sentence shall be consecutive to any active sentence currently beinq
Served by this defendant. Sentencinq hearing attached.
In November of 2001, Btitioner was transported to prison and was initionally sent to the
South Florida Reception Center in Miami. Soonthereafter, Petitioner was interviewed by
a Classification Officer.who informed Petitioner that he had been sentenced to

q

thirty

year consecutive sentence by Judqe Jones Cohn, but the Judqe was not specific as to
which sentence the thirty year sentence was to run consecutive to. Petitionerwas
further informed that since the Court did not do such then they,i.e.,Classification Dept,
had the authority to structure said sentence,and since the three years six months,i.e.,
was banded down before tbe twenfy years Sentence the riqht tbinq to do was to
three and a half years and concurrent to the 20
run the thirty years consecutive to the
year sentence. Btitioner was also provided withi aq printout by Classification to show
3

what his total prison sentence was,which was 33 YRS C MOS 0 DAYS.Classification
printout attached,which also revealed a tentative release date of theyear 2031. For over
numerous years Petitioner's initially structured Court imposed sentence remained the same.
Month after month, Petitioner was earninq qain time of ten days, which in turn, had then
reduced his release date by years. In March of 2018, Btitioner forwarded an Inmate
Request Form to Martin C.I. Classification Deph.requestinq that Petitioner be awarded
3.

One 4Sntr<i off and twenty days of monthly gam line on 4Vie 3 */-z years sentence, which
was a

ll^J case.The response

Petitioner received loack -from Classiffcation

satisfactory to Petitioner, so a grievance and an appeal was taken/filed
was non
in Hay of 2018. Several additional grievances and appeals were filed in June and
July 2018, offer having received unsatisfaclory responses. Then, in August of2018.
Petitioner received a Memo fron Ihe FDQC stating that they hod now re-structured
Petitioner's sentence by* now" also running the 30year prison sentence cons ecu live
to the 70year prison sentence also, and not just only to the 3% years sentence. Mow,
the 33years and six nonth prison sentence hod turned to a 53years and si/ month
rison sentence.wSee attached Bgr*io-Btitioner was retaliated for exercising hiS 1st Amend.

P-

Petitioner immedinloli//filed an a ypeaL'

\

ihe claims were double jeopardy as wellqs vindictiveness. Btitioner also
asserted fundamental fairness Qnd lenity. AII grievances and appeals were denied,
petitioner then turned to the State’s Lower Tribunal Court, i.e., Second Circuit. The issues
raised and argued were the sqme as raised to the FLDOC£petitioner{argued thqt
the Lower Tribunal Court that sentenced Btitioner in 1SSS,did noTaclhere to the
States request t© sentence Fetitioner to a 30year sentence consecutive to both,Le.,iO
and 3 V2 years sentences, but did adhere to the plea of fetitioner to not sentence him
consecutively to the 10 year Sentence. And, even the the Lower Tribunal Courtdid
consecutive sen knee the Court did not state which sentence the 30years
impose
was to run consecutive too. Btitioner also stated and pointed out that the words
and statement used by the Court supported fetitioners claim,wheitthe Court
stated,"consecutive botany active $entence"'currently being served bv th/s defendant.
Btitioner argued that these words, i.e.j any and sentence, are sinaularand
not
!
plural ones, Qnd the entire phrase is a SingMlor phrase and not a plural one,
Btitioner also pointed out that the Court never used the work nor phrase or
hrases of: consecutive to both active sentences CorJ consecutive to each or
every active sentence, nor did the Court state consecutive to all active

f

sentences. Btitioner also anjved that Double Jeopardy attqches because
FLDOC initianally took it upon themselves to structure fetitioner's initial
sentence as fbey saw fit and cou Id

not

now c bange

Btifioner's sent ence
nearly two decades lat er an d that said sentence, 33years and six months,
was now a binding sentence,The Lower Trib una I Court denied relief.
Btitioner appealed to the First District Courtof Appeals.
The appeal was hy way of a Certiorari. Ttie sqme issues Qnd argument was
raised which werer Double Jeopardy; fundomental Fairness', Uu€ Process
fourteenth Amendment and iem y. Btitioner also added as on Appendix
the Lower Tribunal Court's sentencing order,where the Court did not list
no case nor cases that the 30year sentence wqs to run consecutive too,
5>pr also sentencing order,attached
The State of FL filed a response. Certiorari*
5.
later denied.

REASONS FOR GRANTING THE PETITION

Hie issue before this Honorable Court is one of Great Rtblic Importance and
should be decided due lo the possibility of having a present and/or future ®ff'ect upon
hundreds of thousands of State frisoners eventually.
*"
The noridq Supreme Courl and all five of Florida’s Stale Appeals Courl q(|
steadfastly agree That oral pronouncenenl rules and is controlling over written
ronouncen ent and/or an order The difference here,and issue, bet ore before Ibis
onora hie Court, is that both, i.e.,oral and wri'lien pronouncement are one in Ihesane
and corroborates one ano liner. The Stale Trial Courl dearly used the worJ"ony,"which
means one or Ihe other. When used in o sentence or as on example the word*any' means
one or either. Rs an example ifsoneone were lo sqy/aoy" cqtordog wit I be fine. One
pel is clearly whai Ihe subject number is about. If someone were to say, qII or ever
/
or each or both will be fine, then it's dear that more Ihan one animal is toeing
talked about. See also the Slate Trial Courts Written Order, where the Slate Court did
not write in neither senlence or sentences that fttitioner was to Serve consecutive
to the 30yeqr senlence. there were and are two sentencina choices that the State
Court had, which were: ...etc.
30yearsSconseculive lo CorT 30yearS concurren I with (check one) the followin

9

V

WL Any active senlence being served.
__ Specific sentences*.

Petitioner brings to the attenti on o f and points out to Ibis Honorable Court
that wordiniq or language stated on the written sentencing order informs the
check one) of the followings: The State Trial Court did not check the
wording rnaT iTHTrs opecitic sentences, whicn clearly means multible. Intact,
the opposite was check,which meant then and means s!ill>one. Then therei the word
“sentence"which means one qlso. The State Trial Court did not orally state:
Consecutive to both active sentences currently being served by this defendant,
or, all active sentences,or, every active sentence,or eocb active sentence,
Petitioner has a constitutional right to be equally treated as others whom
qre equally Situated qs ftlilioner, and, the State Courts have an obligation to
not only follow its or their own rules,laws and/or procedures, they have a duty
to apply them egually^See Asbleyv. Stole,850 So.Zd 1£C5(ria.fO03); State v.Vilson,
G80 So.^dMII/MS (Fla. 1W); Lippman v. State,633 So.2d 1061( Fla.m1!); Driver
G.

V/. Slate, 710 So.2d £52,053 ( Flo. 2d DCAm8); Evans v. Stale, C75 So.2dWMr\a.
DCA 1330) and Justice v. State, C58 So.Zdi028,1035-3C (Fla. 5th DCAW5).
The second reason as
Honorable Court should Hear
this case, is because of its complex issues which are inlereYtricably
intertwined. It is well understood thal”no StateDeplnf Correction*1 hoc d-Vie authority
to arbitrarily change a sentence that has been impos'ed by a Court,Ut Judge.
But does one has the right to choose 'V sentence to apply another seperate
sentence consecutive to,if Q Court, i.e., Judge,fa,led to chooseMnd if a State
Dept, of Corrections does infacf do so, is it not then a Double JeopQrdy violation
if it later changes said initial sentence that it applied f
Petitioner strongly believes that a Double Jeopardy violation has occurred,
and! that he was not sentenced to SO years consecutively to both sentences of
3 lz and 20 years. And that once fl DOC structured Rlilioner^ sentence in 200],
then it could not change such nearly twenty yeans later The initial sentence is
bmding,and must not allowed to he changed, by this Honorable US Supreme Court.
The double jeopardy clause of the Federal ConstitionS Fifth Amendment
pro vt des
offence.

that no

person may be twice put in jeopardy for the same

Grantina this fttitiion would be appropriate,due to the State Courts reasoning and

3

decisions having been made in contrast of andto we II established Federal law. Inwnich,
resulted in a decision that was based upon Qnd/oron an unreasonable determination of
the facts in light of the evidence presented in the State Courts.
In The Slate of Florida oral pronouncement is controlling. See fla. R.Crim. P 3.700(b).

1.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,
Derrick C. lamps, DC No.:

Date:

93

January

8.

